<html>
<title> - ORGANIZATIONAL MEETING FOR THE 113TH CONGRESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             ORGANIZATIONAL MEETING FOR THE 113TH CONGRESS

=======================================================================



                                MEETING

                               BEFORE THE

                           COMMITTEE ON HOUSE

                             ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, FEBRUARY 5, 2013

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
                             www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-194                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 JUAN VARGAS, California
RICHARD B. NUGENT, Florida

                           Professional Staff

                      Kelly Craven, Staff Director
                  Jamie Fleet, Minority Staff Director


             ORGANIZATIONAL MEETING FOR THE 113TH CONGRESS

                              ----------                              


                       Tuesday, February 5, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 3:00 p.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Rokita, 
Gingrey, Brady, and Vargas.
    Staff Present: Kelly Craven, Staff Director; Peter 
Schalestock, Deputy General Counsel; Kimani Little, 
Parliamentarian; Joe Wallace, Legislative Clerk; Yael Barash, 
Assistant Legislative Clerk; Salley Wood, Communications 
Director & Deputy Staff Director; Linda Ulrich, Director of 
Oversight; Bob Sensenbrenner, Elections Counsel; Karin Moore, 
Elections Counsel; Phil Kiko, Counsel; Jamie Fleet, Minority 
Staff Director; Matt Pinkus, Minority Senior Policy Analyst; 
Matt Defreitas, Minority Professional Staff; Khalil Abboud, 
Minority Elections Staff; Thomas Hicks, Minority Elections 
Counsel; Mike Harrison, Minority Professional Staff; and Greg 
Abbott, Minority Professional Staff.
    The Chairman. I would like to call to order the Committee 
on House Administration for its organizational meeting for the 
113th Congress. We are here today to formally adopt for the 
113th Congress the rules of our committee, our oversight plan, 
and the parking policy as well for this Congress, and let me 
just begin by thanking everybody for their attendance here 
today. I am delighted to see you all and certainly for all of 
our retiring members or, excuse me, our returning members, I 
think that the entire Congress thanks you for your service on 
this committee, your dedication to the mission of this 
committee, which is ensuring that Congress runs in a very 
efficient way, cost-effective way, a transparent way, and that 
as well we need to optimize member services for Members of 
Congress as they serve their constituents and serve our Nation. 
As well this committee has a principal jurisdiction, one that 
serves to protect and promote the very core of our democracy, 
which of course includes oversight of our Federal elections 
process.
    This is a small committee but a very important committee. 
The leadership of both parties do recognize that, so it is an 
honor to serve with each of you. Of course, we have all been 
selected by our respective leadership because of the unique 
qualifications that each member here brings, and I think with 
all the different types of responsibilities and jurisdiction 
that this committee has, we have an opportunity to have an 
impact in a very real way, in a way that other Members of 
Congress might not have, so certainly I think that is so in 
both the short term as well as the long term, and I think we 
are all excited about that.
    So let me just briefly recognize the members on our side as 
we begin our organizational meeting. First of all, Gregg 
Harper, who represents Mississippi's 3rd District, third term 
in Congress, and his third term on the committee, so three is 
your lucky number I would say. But he has been very involved in 
this committee on a number of different issues. Last Congress 
he served as the chair of the Subcommittee on Elections. This 
Congress Mr. Harper has agreed to serve as the chairman on the 
Joint Committee on the Library of Congress, and we are 
certainly looking forward to his leadership on that and so many 
other issues as well.
    Dr. Phil, Dr. Phil Gingrey represents the 11th District of 
Georgia. We came into Congress together, we all called him Dr. 
Phil, we still do. Beginning, as I say, his sixth term in 
Congress and second on this committee. During the last Congress 
he served as the chair of the Subcommittee on Oversight, and 
again we look forward to his continued work on making a 
positive impact on Washington and with this committee.
    Mr. Gingrey. Thank you, Madam Chair.
    The Chairman. Aaron Schock, who is not with us currently 
but again returning to the committee, has been the chairperson 
of the Franking Commission. He will continue to do that, and he 
has worked in a very bipartisan way on this committee, and we 
are looking forward to him continuing to advance those goals.
    Todd Rokita, former secretary of state, as was myself, Todd 
represents the 4th District in Indiana, second term in the 
House. He was actually a president of the National Association 
of Secretaries of State at one time, and I think when we think 
about that as an organization and having them continue as 
stakeholders, ground floor stakeholders, as they say, on 
election issues, that will be a particularly great expertise to 
bring as well, so I think between Gregg and Todd we have really 
good expertise on election area.
    And Rich Nugent comes from the 5th District of Florida, 
second term in the House and on this committee, was a law 
enforcement officer for 40 years, and not a gray hair to be had 
with all of those years of law enforcement, but he will be 
invaluable particularly as we think about security on the 
campus and working with the Capitol Police and so many other 
issues as well.
    So I am delighted to have been appointed by Speaker Boehner 
on this committee. I actually served on this committee in the 
109th Congress. Speaker Hastert had appointed me at that time. 
So I have a bit of an understanding of some of the various 
things that happen on this committee, but I hope that my 
background as a former secretary of state and all of my jobs 
actually in public service were administrative in nature before 
I came to Congress, so the legislative part was new for me 
then, but I am very excited about the work. I spent most of the 
last 2 months having an opportunity to meet with the various 
professional staff that is here, and I use that term in a very 
descriptive way. They are incredibly professional, the staff on 
this committee, the amount of work that they produce. Going 
through the new members orientation, I know you can speak to 
that, but so many of the different things that they are 
involved with, the House officers, whether it is the Sergeant 
of Arms, the Clerk of the House, et cetera, and meeting with 
the CRS, the Smithsonian. I met today actually with the 
printing office, the printers, all of these kinds of things. It 
is great to see the dedication, the commitment, again how 
professionally they approach their jobs and how we all want to 
do a better job as we go forward. As well, Ranking Member Brady 
and I have had a number of conversations about the committee 
and his vision, and I think good communications is always a 
critical component of good government and look forward to 
working with him.
    I will say that one of the things that--and we are going to 
be addressing here with the rules as we do the rules, I think a 
way for our committee really to take a lead on being sensitive 
to the financial restrictions that are being faced by the 
entire Congress certainly is as we look toward ourselves is 
whether or not we ought to continue with the subcommittees as 
have been stood up for the last couple of Congresses. Actually 
we didn't have subcommittees when I was here in the 109th. I 
know they were stood up during the interim time, and they have 
been a very important component of this committee, but as I 
have talked to everybody, I think, about this, we have decided 
to lead by example and to eliminate the two subcommittees that 
we have. Again, I think with such a small committee structure, 
we can definitely show that we can do more with less by doing 
that. I think a number of issues can be addressed. Certainly 
the elections, bringing it to the full committee, and engaging 
all of the members I think is a very good way to proceed and I 
think from an oversight committee different things that Phil 
Gingrey has worked on in the past with his subcommittee, we are 
looking forward to him taking a lead on a number of those 
issues, bringing them back to the full committee for potential 
hearings, et cetera.
    So I look forward to a very productive Congress, and I 
would just simply say to the members that you will find that my 
door is certainly always open to ideas and suggestions as we go 
forward, and with that I would like to ask the ranking member 
for his opening statements.
    Mr. Brady. Thank you, Madam Chair. I appreciate, and again 
I thank you and appreciate all our conversations that we did 
have. I welcome you back to our committee. I am a little closer 
to you now. Last time you were pretty far away from me, but it 
is good to have you here, and I appreciate you conversing with 
me on the direction you would like this to go and accepting 
some of my feedback, and I know that we will be able to work 
together. This is a committee that tries to help people, you 
know, and that is what I like to do. I like to help them before 
they need other people's help or guidance, and it is a 
Congressman's committee, you know. It is a committee that we 
are here to try to be helpful to work things out, so I do 
appreciate you being here and looking forward to working with 
you.
    I would also like to welcome in our newest Democratic 
member, Congressman Juan Vargas from California, thank you. A 
former city councilman, State Assembly member, State senator, 
Mr. Vargas is no stranger to the legislative process or 
institutions. As a Harvard-trained lawyer--and I will not hold 
that against you--Mr. Vargas will certainly be useful to all 
members of the committee as we work through the rules and 
regulations that this committee is involved in as well as the 
details of election and campaign finance laws, and I am also 
glad that you agreed to serve on this committee, and welcome 
you, and we will get together, you know, I will let you know 
just what is expected and what this committee's role is and 
what direction we would like it to go into. So, again, thank 
you for being here.
    Madam Chairman, our organization meetings are brief, so let 
me say that I recommend that the Democratic members support the 
three resolutions before us today. The committee rules, 
oversight plan, and parking policy have been developed with our 
input, and we should adopt them without delay. I look forward 
to the important work of this committee, and I yield back the 
balance of my time, and I again congratulate you.
    The Chairman. Thank you very much, I appreciate that and 
again welcome to you. We look forward to working with you as 
well. So much for as a new member.
    The first item on the agenda is consideration of Committee 
Resolution 113-1, which is the proposed committee rules for the 
113th Congress. Pursuant to House rule XI, clause 2, the 
Committee on House Administration shall adopt written rules 
governing its procedure. The proposed rules are similar to the 
rules adopted by this committee during the last Congress. They 
conform with recent changes to the House rules as amended in 
this Congress. Overall I think these changes provide for 
greater transparency in the operation of the committee. I hope 
the members will support them.
    I now recognize the ranking member, Mr. Brady, for any 
statement on the resolution he wishes to give.
    Mr. Brady. Thank you, Madam Chairman. I have no statement.
    The Chairman. I now call before the committee Committee 
Resolution 113-1, committee rules. Without objection, the first 
reading of the resolution is dispensed with, and the resolution 
is considered read and open for amendment at any point.
    [The resolution follows:]

    [GRAPHIC] [TIFF OMITTED] 80194A.001
    
    [GRAPHIC] [TIFF OMITTED] 80194A.002
    
    [GRAPHIC] [TIFF OMITTED] 80194A.003
    
    [GRAPHIC] [TIFF OMITTED] 80194A.004
    
    [GRAPHIC] [TIFF OMITTED] 80194A.005
    
    [GRAPHIC] [TIFF OMITTED] 80194A.006
    
    [GRAPHIC] [TIFF OMITTED] 80194A.007
    
    [GRAPHIC] [TIFF OMITTED] 80194A.008
    
    [GRAPHIC] [TIFF OMITTED] 80194A.009
    
    [GRAPHIC] [TIFF OMITTED] 80194A.010
    
    [GRAPHIC] [TIFF OMITTED] 80194A.011
    
    [GRAPHIC] [TIFF OMITTED] 80194A.012
    
    The Chairman. Any member like to offer an amendment to the 
resolution?
    Then I move that the committee adopt the Committee 
Resolution. The question is on the motion to adopt the 
resolution. I ask that all members who are in favor of the 
motion signify by saying aye.
    Aye.
    Opposed?
    In the opinion of the chair, the ayes have it. The ayes 
have it, the motion is agreed to. Without objection, the motion 
to reconsider is laid upon the table.
    Next item on the agenda is consideration of Committee 
Resolution 113-2, which is the committee oversight plan. Rule 
X, clause 2(d) of the House rules states that no later than 
February 15th of the first session of Congress the committee 
shall adopt an oversight plan for that Congress. The oversight 
plan will focus on identifying and reducing wasteful spending 
within House operations by increasing operational efficiency 
and streamlining various House technology initiatives. The 
committee will also work with the agencies it has direct 
oversight of by establishing best practices to improve their 
services to the House community as well as the millions of 
constituents visiting each year.
    I recognize ranking member Mr. Brady, for a statement on 
the resolution.
    Mr. Brady. Thank you, Madam Chairman. I have no statement.
    The Chairman. I now call up and lay before the committee 
Committee Resolution 113-2. Without objection, the first 
reading of the resolution is dispensed with, and the resolution 
is considered read and open for amendment at any point.
    [The resolution follows:]
    [GRAPHIC] [TIFF OMITTED] 80194A.013
    
    [GRAPHIC] [TIFF OMITTED] 80194A.014
    
    [GRAPHIC] [TIFF OMITTED] 80194A.015
    
    [GRAPHIC] [TIFF OMITTED] 80194A.016
    
    [GRAPHIC] [TIFF OMITTED] 80194A.017
    
    [GRAPHIC] [TIFF OMITTED] 80194A.018
    
    [GRAPHIC] [TIFF OMITTED] 80194A.019
    
    [GRAPHIC] [TIFF OMITTED] 80194A.020
    
    The Chairman. I recognize myself for the purpose of 
offering a manager's amendment. A copy of the amendment has 
been provided to all members, and without objection the 
amendment will be considered as read.
    [The amendment follows:]
    [GRAPHIC] [TIFF OMITTED] 80194A.021
    
    [GRAPHIC] [TIFF OMITTED] 80194A.022
    
    [GRAPHIC] [TIFF OMITTED] 80194A.023
    
    [GRAPHIC] [TIFF OMITTED] 80194A.024
    
    [GRAPHIC] [TIFF OMITTED] 80194A.025
    
    [GRAPHIC] [TIFF OMITTED] 80194A.026
    
    [GRAPHIC] [TIFF OMITTED] 80194A.027
    
    [GRAPHIC] [TIFF OMITTED] 80194A.028
    
    The Chairman. Any member wish to be heard on the amendment?
    If there is no further debate, then the question is on 
whether the committee will adopt the amendment.
    All those in favor signify by saying aye.
    Aye.
    Opposed say nay.
    Motion carried.
    Now I move that the committee adopt the Committee 
Resolution as amended, and the question is on the motion to 
adopt the resolution.
    All members in favor signify by saying aye.
    Aye.
    Opposed say nay.
    The motion carried.
    I don't want you to think every meeting will be like this.
    Mr. Brady. He will get use to it.
    The Chairman. Okay. The last item on the agenda is the 
Committee Resolution 113-3, the parking policy for the 113th 
Congress. Pursuant to House rule X, clause 1, the Committee on 
House Administration has jurisdiction over the parking 
facilities used by members, staff, and authorized personnel of 
the House of Representatives. The parking policy for this 
Congress was created in consultation with the minority, and I 
want to thank the minority for their suggestions and the 
bipartisan work on the parking policy, and I certainly want to 
thank House parking security for working with the committee in 
developing the policy.
    I recognize the ranking member, Mr. Brady, for any 
statement on the resolution.
    Mr. Brady. I have none, Madam Chairman.
    The Chairman. I now call up and lay before the committee 
Committee Resolution 113-3. Without objection, the first 
reading of the resolution is dispensed with. The resolution is 
considered read and open for amendment at any point.
    [The resolution follows:]
    [GRAPHIC] [TIFF OMITTED] 80194A.029
    
    [GRAPHIC] [TIFF OMITTED] 80194A.030
    
    [GRAPHIC] [TIFF OMITTED] 80194A.031
    
    [GRAPHIC] [TIFF OMITTED] 80194A.032
    
    [GRAPHIC] [TIFF OMITTED] 80194A.033
    
    The Chairman. Does any member have an amendment to the 
resolution? Then I move the committee adopt the Committee 
Resolution, and the question is on the motion to adopt the 
resolution.
    All members in favor signify by saying aye.
    Aye.
    Opposed say nay.
    Motion carried.
    Without objection, the motion to reconsider is laid upon 
the table.
    And before we can conclude, I guess I would just ask any 
other member if they have any comments about any business 
before the committee or any business they would like to see 
before the committee or any other comment.
    Okay. This concludes all the matters before the committee. 
I certainly want to thank everybody for participating. Again, 
look forward to working with you all this Congress.
    The meeting is now adjourned.
    [Whereupon, at 3:13 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
